r/

.

9A
_«
s0
\Jj
W' oJ.' Qjy

,4

^c

", r ;v ;; r p

No.

"\\LL^
Supreme Court, U.S.'
FILED

m2sm
IN THE

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES

JOSE DELORES VANEGAS

— PETITIONER

(Your Name)

vs.
UNITED STATES OF AMERICA

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

JOSE DELORES VANEGAS

(Your Name)
D. RAY JAMES CORR. FAC., POST OFFICE BOX 2000
(Address)
F0LKST0N, GEORGIA 31537
(City, State, Zip Code)
—---

(Phone Number)

RECEIVED

DEC - 7 2m
OFFICE OF THE CLERK
SUPREME COURT. U.S.

>

QUESTION(S) PRESENTED

I
WHETHER THE TRIAL COURT ABUSED ITS DISCRETION BY REFUSING TO ACCEPT THE
. PETITIONER'S CLAIMS WITHOUT CONDUCTING THE PROPER SPECIFIC FACT-FINDINGS IN ORDER TO
DETERMINE THE TRUTH OF THE PETITIONER'S CLAIMS OF GOVERNMENTS GROSS PROSECUTORIAL
MISCONDUCT.
II
WHETHER A CONVICTION SECURED IN VIOLATION OF THE FOURTH AMENDMENT AND FIFTH
AMENDMENT DUE PROCESS CLAUSE, AND FEDERAL LAWS SHOULD BE REMANDED BACK
TO THE LOWER COURT FOR FURTHER PROCEEDINGS

-ii-

LIST OF PARTIES

[X) All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

-i-

»« <

s

TABLE OF CONTENTS
1

OPINIONS BELOW
JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4 -15-

REASONS FOR GRANTING THE WRIT

16-18

CONCLUSION

18-19

INDEX TO APPENDICES

APPENDIX A

Opinion of the United States court of appeals

APPENDIX B

Opinion of the United States district court

APPENDIX C

Opinion of the United States Court of Appeals (May 19, 2015)

APPENDIX D

Partial Report of Cell Phone Content Download

APPENDIX E
APPENDIX F

TABLE OF AUTHORITIES CITED

PAGE NUMBER

CASES
United States v. Murphy,
552 F3d 405, 411 (4th Cir. 2009)

7

Riley v. California,
573 US
(2014) ......................

8

New York v. Belton,
453 US 454 (1981)

8

Chimel v. California
395 US 752 (1969)

8

United States v. Chadwick,
433 US 1 (1977) .............................

8

United States v. Wall,
US 11th Dist. (2008), LEXIS 103058

8

Continue next Pg ...

STATUTES AND RULES
18 USCS § 2703(c)(1)(A), 3117 ....................

4

28 USCS § 2255 .............................................

13

Fed. R. Crim. P. Rule 12(b)(3)(C), 12(c)(1)
Rule 41(c) .......................

12-13 •
9

OTHER
Fourth and Fifth Amend. US Const.

ii, 16
-iii-

PAGE(S):

CASES:
United States v. Vanegas,
560 F Appx 191 (Mar. 2014)

12-13

Vanegas v. United States,
135 S Ct 377 (2014) ........

12

Kimmelman v. Morrison,
477 US 365, 383, 106 S Ct 2574 (1986) .

16

Mooney v. Holohan,
294 US 103, 112, 55 S Ct 340 ...............

16

Brady v. Maryland,
373 US 83, 83 S Ct 1194 ........................

16

Owens v. United States,
387 F3d 607, (7th CA 2004), LEXIS 21641

18

Holman v. Page,
95 F3d 481 (7th Cir CA 1996)

18

Houston v. Lack,
487 US 266 (1988)

19

-iv-

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[X] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

A

~B

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
court
to the petition and is
appears at Appendix
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

to

JURISDICTION

[Xl For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was August 25. 2020________
[ X| No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:___________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) on
to and including______
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix______
[ ] A timely petition for rehearing was thereafter denied on the following date:
____________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) on
to and including____
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Fourth Amendment provides:
"The right of the people to be secure in their persons, houses, papers, and
effects, against unreasonable search and seizures, shall not be violated, and no
Warrants shall issue, but upon probable cause, supported by Oath or affirmation, and
particularly describing the place to be searched, and the persons or things to be
seized."
The Fifth Amendment to the United States Constitution commands, in pertinent parts
that,
"No person shall be held to answer a capital or otherwise infamous crime ... nor
be deprived of life, liberty or property without due process of law ..."
The Sixth Amendment to the United States Constitution commands, in pertinent ;par.ts.
that,
"In all criminal prosecutions, the accused shall enjoy the right to a speedy trial ...
and to be informed of the nature and cause of the accusation ... to be confronted with
witnesses against him,... to have compulsory process for obtaining witness in his
favor ... have the assistance of counsel for his defense."
Title 18 United States Code Service, Section 2703(c)(1)(A), 3117.
Title 28 United States Code Service, Section 2255.

3.

STATEMENT OF THE CASE
I. FACTUAL BACKGROUND
The Federal Bureau of Investigation ("FBI") got wind of the conspiracy in auntumn
2011 when local police arrested two individuals in possesion of cocaine concealed in
wooden frames and plaques. As the investigation progressed, the FBI identified Samuel
Benitez-Pineda as distributor. This led investigators to tap Benitez-Pineda's phone.
The phone taps led then to Vanegas. From the intercepted calls, the FBI suspected
Vanegas was purchasing cocaine from Benitez-Pineda and distributing it to others.
The FBI through a warrantless search of Vanegas subscriber cell phone information.
Government failure and neglect to sought the required Court Order pursuant to Title 18
United

States

Code

Section

2703(c)(1)(A),

directing

AT&T

subscriber information of user cellular number (----) ------------,

to

provide

Vanegas

cell

records,
phone

number.
Subsecuent to the warrantless search of Vanegas subscriber information, the FBI
armed with the information obtained illegally begun a warrantless search and seizure
of Vanegas cell phone "real-time cell site data," GPS tracking, conversion of a cell
phone into a "tracking device."
Once again, the FBI fail and neglect to sought the required Court Order pursuant
to Title 18 USC § 3117 to grant or authorize disclosure of prospective "real-time cell
site data," and the required search warrant pursuant to Fed. R. Crim. P. Rule 41
Probable Cause, for monitoring, i.e._ search , and seizure of Vanegas cell .phone cell
site data.
The agents conducted surveillance on Vanegas. The data frequently placed Vanegas
within the apartment complex listed on subscriber information for his cell phone.
On May 1, 2012, FBI agent Kenneth Smith conducted physical surveillance of Vanegas
4.

after the real-time cell site data placed Vanegas cell phone within six meters of an
address in Bowie, Maryland. Agent Smith's conducted a "spoofed" telephone call with
Vanegas while he was under surveillance. During the "spoofed" call, Vanegas identified
himself as "Jose," which is Vanegas' first name. Surveillance photographs taken of
Vanegas during the "spoofed" call were compared to prior arrest photographs of Vanegas
and confirmed to be the same person.
Although the Government secured a warrant for Vanegas arrest on May 8, 2012, the
government could not secure a "search warrant" for Vanegas residence. Where no
information on the records support or link Vanegas criminal activity to his residence.
On May 10, 2012, eight (8) Special Agents of the Federal Bureau of Investigation,
("FBI"): Special Agent, Michael T. Adkins, SA Matthew K. Heise, SA Peter Fediszen, SA
Dave Scott, SA David DeFilippis, SA Garret Nabors, SA Trudie Magnusson, and SA Scott
Stref went to 5535, in Arlington, Virginia to effect the arrest of Vanegas.
However, the FBI did not had independent, reliable information, or corroboration
as to Vanegas physical address. The records once again are silent as to Agents
conducting physical surveillance at Vanegas apartment complex, other than surveillance
through Vanegas location-based services, real-time cell site data, that placed Vanegas
within the apartment complex located at 5535, in Arlington, Virginia.
At approximately 6:05a.m.

SA "Adkins",

leader of the arresting team, and SA

"Heise" knocked at the door at apartment ("702"), not Vanegas apartment, the tenant at
apartment 702, male gender, opened the door, and the arresting team stormed their way
into the apartment with drawn weapons and conducted a warrantless sweep of apartment
702. The agents identified the apartment 702 tenant as the wrong suspect.
Subsecuently, Vanegas', the Petitioner, was arrested in the 7th'floot"mainlhallway
approximately 20 meters of his apartment door, apartment ("704").
5.

While SA Adkins and Heise were effecting the arrest of Vanegas right outside of
his apartment, the remaining members of the arresting team stormed their way into
Vanegas apartment,

and with drawn weapons conducted a warrantless sweep of the

premises. Finding: Vanegas' wife, Vanegas step-daughter and Vanegas minor daughter,
subsecuently securing Vanegas family in the apartment living room.
After conducting the sweep of the apartment where no weapons, contraband, fruit of
crime, or other items illegally possessed was found, Vanegas was brought into the
apartment by agent Adkins and Heise. But, before removing the arrestee, Vanegas, from
the apartment the agents interrogated Vanegas about any firearm possession, if he own
any firearm. Vanegas in response to the custodial interrogation informed the agents:
that he own a hand gun that was stored and secured in a closet. At that point no
Miranda warning was given, or the agents informed Vanegas of any possession of the
arrest warrant or the charge against Vanegas for his arrest, even though Vanegas
repeatedly asked agent Adkins and Heise what was the cause of his arrest, but the
agents deliberatedly neglect to give Vanegas any information as to the arrest warrant.
Immediately after the arrestee, Vanegas, informed the agents that he possessed a
firearm that was stored and secured on a closet, at approximately between 06:15 06:20 a.m. agents Adkins and Heise proceeded to remove Vanegas from his apartment.
Needs to be noted that at that point no "consent" was given to the agents to enter the
apartment or to remain in the apartment. The remaining agents inside of Vanegas
apartment: SA Peter Fediszen; SA Dave Scott; SA David DeFilippis; SA Garret Nabors, SA
Trudie Magnusson; and SA Scott Stref remained in Vanegas apartment ; after

Vanegas

removal from the premises, illegally seizing Vanegas family. All agents were carrying
their service weapons, agent David DeFilippis was holding a fully automatic machine
gun keeping Vanegas family under surveillance while the rest of the team engaged in
rummaging through the apartment in order to discover incriminating evidence, and
6.

subsecuently searching the apartment living room closet, Vanegas personal closet,
where the agents found and retrieve Vanegas firearm, and drug paraphernalia.
While the agents were searching Vanegas apartment, Vanegas were being transport­
ed to (ACPD), Arlington County Police Department to be interviewed by agents Adkins
and Heise.
The agents continue to keep Vanegas uninformed as to the existance of the arrest
warrant and the charges therein. At 7:20 a.m. Vanegas was advice of his Miranda rights
for the first time, Vanegas not fully understanding the significance of a waiver of
rights agree to speak with the agents without an attorney, and at the same time signed
a FD-26 form "consent to search." Obviously, agents Adkins and Heise did not informed
Vanegas that the remaining agents at Vanegas apartment had already begun and engaging
in searching and seizing evidence at Vanegas apartment.
The illegal search and seizure conducted at Vanegas apartment yielded a numerous
cuantity of items, including: Vanegas firearm; iPhone that was seized in the living
room; and drug paraphernalia. The evidence were photographed, bagged and labeled, and
subsecuently transported to the FBI (WFO) Washington Field Office, Norther Virginia
residency.
At the FBI (WFO), Norther Virginia residency, agent "DeFilippis" without a search
warrant or Court Order pursuant to Fed. R. Crim. P. 41(c) authorizing the agents to
search and seizure electronically stored information, on May 10, 2012 at 09:57 a.m.,
through the use of a "Cellbrite" machine, a electronic device to download and copy
cell phones data, agent DeFilippis downloaded and copied entire Vanegas cell phone
content, (i.e. contacts names and phone numbers, and text messages stored on the phone
harddrive, even previously deleted-data and text messages). See Appendix

J) .

A relevant fact thats needs to be noted on this case is: First, altough there was
a binding precedent in the Fourth Circuit, United States v. Murphy, 552 F3d 405, 411
7.

(4th Cir. 2009), which allowed "police officers," not Federal Agents, to retrieve
records and text messages

from suspected narctitles offenders search-incident-to-

arrest, now overruled in Riley v. California, 573 US

(2014). Murphy did not control

the warrantless search of Petitioner's cell phone and two (2) SD Media Memory cards
where: The cell phone was not in possession of the arrestee, Vanegas, at the time of
Vanegas arrest, the seizure of petitioner phone and subsecuent search and seizure of
the cell phone content, and SD Media Memory cards was not a search-incident-to-arrest.
A search incident to arrest must be conducted contemporaneously with the arrest. See
New York v. belton, 453 US 454 (1981). In Chimel the justification for the search
incident to arrest are absent when the search is remote in time from the arrest. The
search and seizure of petitioner cell phone content was conducted at a federal
building hours latter after Vanegas arrest. A search of luggage was not lawful as a
search incident to arrest when the evidence had already been transported to the
federal building.

See United States v.

Chadwick,

433 US 1 (1977).

None of the

justification for a search-incident-to-arrest were present; Second, "the search of a
cell phone conducted by Federal Agents cannot be justified as a search incident to a lawfull arrest," the reading of United States v. Wall, LEXIS 103058, US Dist. for the
Southern District of Florida, make it clear that "[t]he DEA policy on rummaging
through

cell

phone

during

the

booking

process

cannot

immunize

an

otherwise

unconstitutional search." 2008 US Dist. LEXIS 103058
Third, and lastly, but most importantly. The illegal search cannot be saved by the
"good faith exception," where: The Government had time to secure a search warrant but
choose not to do so. On January 4, 2012, United States Magistrate Judge Theresa C.
Buchanan of the Eastern District of Virginia issue warrants authorizing the search and
seizure of the contents of the cellular telephones seized from Melcy Yalexsy GuevaraBarrera at the time of his arrest on October 21, 2011, as well as the cellular
------ C. -T

8.

telephones

inside

the

safe

in

Barreras'

residence.

(Barreras1,

Petitioner

co­

defendant), (The applicant for the search warrant was: FBI Special Agent and Case
Agent, Mark Remily, (WFO) Northern Virginia residency, CR7 Squad). Thus, the agents
were fully aware of the requirements of the search warrant pursuant to Fed. R. Crim.
P. Rule 41(c). The Federal Rules of Criminal Procedure are carefully tailored ground
rules for fair and orderly procedures in administering criminal justice. Rule 41
embodies standards which conform with the requirements of the Fourth Amendment.
A federal search in violation of the Rule affords an accused the right at trial to
the exclusion of evidence thereby obtained. There is no question that the search in
this case did not conform with Rule 41. This challenge is sustainable, and Petitioner
would be entitled to relief, for the fruits of the search and seizure was relevant and
material.
IT. PROCEDURAL HISTORY
i.

The Government charged Vanegas with conspiracy to distribute cocaine under

Title 21 USC § 841(b)(1)(A) and possession of a firearm in furtherance of a drug
trafficking crime under 18 USC § 924(c)(1)(A). Vanegas pleaded not guilty.
ii.

The Government provided Discovery to trial counsel for the defense, pursuant

to a Court Order.
However, the government did not turned over in discovery to Vanegas attorney for
the defense, not a single Court Order and/or any search warrant pursuant to Title 18
USC § 2703(c)(1)(A) directing AT&T to provide records

subscriber information of

Vanegas cell phone number. And the required Court Order pursuant to Title 18 USC §
3117 and the required search warrant granting the government to obtain, search and
seize Vanegas "real-time cell site data." Thus, trial counsel for the defense failed
and neglect to conduct a meaningful review and examination of Discovery materials.
iii.

Vanegas Request of New Counsel for the Defense

On July 27, 2012 Vanegas requested before the District Court new counsel be appointed
9.

to represent him. The District Court informed Vanegas that he can retain new counsel,
but, at this time, his request for new counsel is denied.
On September 13, 2012 Vanegas, for a second time, through a letter to the Court
requested new counsel be appointed. The District Court denied its request.
On January 4, 2013 Vanegas appeared with trial counsel for the defense. Came on
for status re:

request to remove counsel from his representation of defendant.

Argument heard and the Court denied the request for appointment of new counsel. Court
will go forward with the jury trial set for January 14, 2013.
iv.

Pre-Trial Motions. Trial Counsel for the Defense Neglect and Failure to File

Motion to Suppress Pursuant to Fed. R. Crim. P. Rule 12.
Even though,

trial counsel for the defense was apprised of the information

described on part I. FACTUAL BACKGROUND, information that was related verbally by
Petitioner - Defendant to trial counsel for the defense on a series of interviews held
at ("ADC"), Alexandria Detention Center, Alexandria, Virginia. Where the defendant
described: (1) The arrest executed outside of Vanegas apartment; (2) Warrantless sweep
of Vanegas apartment;

(3) Agents questioning/interrogating Vanegas about firearm

possession without ministering the proper Miranda warnig; (4) Unlawful seizure of
Vanegas

family

members.

Vanegas

wife,

Vanegas

step-daugther

and Vanegas

minor

daugther, and illegal stay of agents in Vanegas apartment after the wrrantless sweep,
i.e., no consent to either enter the apartment or stay; (5) Warrantless search of
Vanegas closet in order to locate and secure Vanegas firearm, no consent given to
search. Search of Vanegas closet right after Vanegas departure from the premises at or
around 6:15 - 6:20 A.M..
v.

The Trial

Through trial counsel for the defense failure to file an motion to suppress and
his failure to correct the records, trial counsel enabled the Government to introduce
and ripe the fruits of their illegal obtained evidence, unchallenged evidence and
10.

testimony elicited by FBI agents. Fruits of the illegal FBI agents and Assistants US
District Attorneys actions.
That is,

FBI (SA) Adkins,

leader of:the arresting team. Which testified, under

Oath falselly, and submitted a FD-302, written report seven (7) day after the arrest,
where (SA) Adkins stated the following: (1) That the arrest of the Defendant was
executed inside the residence; (2) and that rest of the arresting team, six (6) SA's
remained at the defendant residence pursuant to a "voluntary consent to search." But,
as noted above, (SA) Adkins assertions were false to both statements. No objection
whatsoever by trial counsel for the defense.
Testimony by (SA) DeFilippis. Who testified falsely, stating that defendant wife
granted the agents the right to search Vanegas personal closet located in the living
room. Where the agents located and seized Vanegas firearm and drug paraphernalia, and
some other damning evidence. However, agent DeFilippis testified truthfully as to the
search and seizure of the warrantless download and copy of Vanegas digitally content
of his cell phone and two (2) SD Memory Cards.
Subsecuently, the government also introduced a government key witness to its case.
Carl T. Walsh Jr., "Walsh," also known as "CT", whose identity was made known to FBI
agents and district attorneys through the illegal search and seizure of Vanegas cell
phone content, which revealed text messages between Vanegas and "Walsh," the text
messages were also admitted at trial as evidence. No objection by trial counsel.
The Government also introduced the testimony of (SA) Smith, Kenneth Smith. Who
testified falsely as to the Court Order granting the government to search and seize
Vanegas "real-time cell site data," GPS tracking of Vanegas cell phone. As noted,
Court Order wags tever granted. No objection by trial counsel for the defense. .
After a two-day trial at which the government introduced its numerous "ill-gained"
evidence, the government rested its case. On January 15, 2013 the jury found Vanegas
11.

guilty of distributing 500 grams or more of cocaine and possession of a firearm in
furtherance of a drug trafficking crime.
III. POST-TRIAL PROCEDURAL HISTORY
At sentencing, Vanegas for the first time argued that the evidence taken from his
cell phone was illegally obtained and the testimony elicited from Carl T. Walsh Jr.
was "fruit of the poisonous tree."
The District

Court sentenced Vanegas to sixty months on the conspiracy to

distribute cocaine charge and sixty months on the on the firearm charge, which by
statute must run consecutively to the drug charge. Vanegas appealed his conviction.
In Defendant's direct appeal, appeal counsel's did not assert a Fourth and Fifth
Amendment claims. Vanegas Fourth and Fifth Amendments claims were not raised in the US
District Court proceedings by trial counsel for the defense through a motion to
suppress prior to trial under Fed. R. Crim. P. Rule 12.
On direct appeal Vanegas could not pursue separate Pro Se claims. Therefore,
Vanegas appeal counsel, appealed on grounds of the firearm charge, and the sufficiency
of the evidence supporting Vanegas conviction as well as a related jury instruction
which the Court provided at trial. The US Court of Appeals for the Fourth Circuit
rejected Vanegas' appeal and affirmed his conviction. See United States v. Vanegas,
560 F Appx 191 (Mar. 2014).
Vanegas filed for a petition for certiorari to the United States Supreme Court in
which he argued that the search of his cell phone without a warrant was in violation
of the Fourth Amendment as interpreted by the Supreme Court in Riley v. California,
573 US

134 S Ct 2473 (2014).

On October 14, 2014 The Supreme Court simultaneously granted Vanegas' petition for
certiorari and remanded his case to the Fouth Circuit "for further consideration in
light of Riley v. California." See Vanegas v. United States, 135 S Ct 377 (2014).
12.

Upon remand, the Fourth Circuit again affirmed Vanegas' conviction. The Court
Concluded that because trial counsel for the defense failed to timely file a motion to
suppress the fruits of the search of vanegas' cell phone pursuant to Fed. R. Crim. P.
Rule 12, he waived the suppression argument that he raised upon remand. See United
States v. Vanegas, 560 Fed Appx 191, 2014 US LEXIS 4405 (4th Cir. VA., 2014).
The Court of Appeals for the Fourth Circuit also found that Vanegas' through
counsel for the defense failure lacked "good cause" to excuse the waiver,

thus

rendering the mandate in Riley inaplicable in remand. See Appendix C.
Vanegas' petitioned the Supreme Court for certiorari with respect to the Fourth
Circuit's second affirmance on August 27

2015 The Supreme Court denied Vanegas

second petition on October 6, 2015. .
Exhausted Attempt to Relief Through Tiltle 28 USC § 2255
On October 7, 2016 Petitioner filed his motion pursuant to Title 28 USC § 2255 and
his exhibits. Civil case opened, entered: October 12, 2016.
Twelve (12) month after a inordinate amount of time that petitioner motion was
pending before the habeas Court, petitioner filed a letter/motion requesting the
status of his pro se § 2255.
Fifteen (15) month latter, after petitioner initial filing of his § 2255 motion,
the habeas Court being fully advise in its premises pursuant to Rule 4 governing §
2255 directed the United States to file a response. Entered: January 31, 2018.
On April 2, 2018 the respondent, the government, filed response in opposition to
petitioner pro se § 2255. Entered: April 2, 2018.
On May 23, 2018 Petitioner filed its memorandum in support of its motion, traverse
and exhibits to respondent motion in opposition.
Subsecuently, due to the fact that several evidentiary desputes arised after
government assertions and contentions grounded on false statements and false evidence
13.

in their response in opposition to petitioner motion § 2255, on November 2018
petitioner filed its motion for a evidentiary hearing.
Once again, inordinated amount of time for adjudication by

the reviewing habeas

Court. After petitioner motion under § 2255 had been pending in the Courts dockets for
about Thirty (34) month without being adjudicated,

on or about August 10, 2019

petitioner filed a motion to expedite pursuant to Title 28 USC §§ 1657 & 2243 to
hasten petitioner motion under § 2255 to be adjudicated.
Due to unreasonable delay by the reviewing habeas Court in rendering a decision on
petitioner motions, the petitioner on March 2, 2020 filed his petition for Writ of
Mandamus before the United State Court of Appeals for the Fourth Circuit in order to
compel the District Court to adjudicate petitioners motions.
Subsecuent to petitioner filing for a writ of mandamus, on March 23, 2020 Twentyone day thereafter of petitioner filing for a writ of mandamus to compel, and fortyone (41) month after petitioner initial filing of its § 2255 motion, the habeas Court
ruled denying: Petitioners motion under § 2255; Motion to set a evidentiary hearing;
Motion to expedite under §§ 1657 & 2243 as moot. And Expressely declined to issue a
certificate of appelability, ("COA"). Order entered: March 23, 2020.
The habeas Court denied petitioner motion for a evidentiary hearing, even though,
petitioner papers

inexpertly

drawn but

they do

setforth allegations

that his

conviction is based on the wanton Due Process violations employed by FBI agents and
district attorneys, the government, to obtain his conviction. And that Vanegas trial
counsel for the defense was remiss and grosly eneffective to assert the petitioners
constitutional rights under the United States Constitution, and federal laws. Thus,
depriving Vanegas of his constitutional right to effective assistance of counsel. .
However, petitioner filed his notice of appeal to the District Court Order.
Entered: April 6, 2020.
14.

On May 13, 2020 the petitioner filed his brief of appellant before the United
States Court of Appeals for the Fourth Circuit. Where the appellant presented two (2)
issues:

ISSUE I.
WHETHER THE DISTRICT COURT ERRED BY FAILING TO ASSES TRIAL COUNSEL FOR THE
DEFENSE OVERALL PERFORMANCE THROUGHOUT PETITIONERS CASE WITHOUT APPLYING A
HEAVY MEASURE OF DEFERENCE TO COUNSEL'S JUDGMENT WHERE TRIAL COUNSEL POOR
PERFORMANCE (1) DEPRIVED VANEGAS' OF HIS LIBERTY' WITHOUT DUE PROCESS; HIS
GUARANTEED SIXTH AMENDMENT RIGHT TO EFFECTIVE ASSISTANCE; AND (2) TRIAL
COUNSEL COMBINED INVESTIGATIVE PERFORMANCE WAS SO POOR AND PREJUDICIAL THAT IT
DESTROYED VANEGAS' MOST FUNDAMENTAL OF RIGHTS; THAT IS, HIS RIGHT TO A
FAIR TRIAL.

ISSUE II.
THE DISTRICT COURT ERRED BY NOT GRANTING PETITIONER'S AN EVINDENTIARY HEARING
WHERE THERE IS A FACTUAL DISPUTE, THE HABEAS COURT MUST HOLD AN EVIDENTIARY
HEARING TO DETERMINE THE TRUTH OF THE PETITIONER'S CLAIMS.
On August 25, 2020 The United States Court of Appeals for the Fourth Circuit
denied a certificate of appelability and dismissed the appeal. .
As the District Court, and the United States Court of Appeals for the Fourth
Circuit has

foreclosed

all

petitioner's

attempts

for

relief

of

its

imprisonment, the petitioner now plead its case before this Honorable Court.

15.

illegal

REASONS FOR GRANTING THE PETITION
I.

Where the lower courts had had abused its discretion by refusing to accept the

petitioner's meritorious claims without conducting the proper specific fact-findings
in order to determine the truth of the petitioner's claims of governments gross
prosecutorial misconduct where FBI agents engaged in conducting numerous surreptitious
warrantless searches and seizures; and prosecuting district attorneys knowinly and
intentionally using the same FBI agents to elicit false and perjured testimony to
deprive the defendant - petitioner, (hereinafter, "Vanegas"'), of his constitutional
rights under the United States Constitution Amendments Fourth and Fifth, and federal
laws; and where trial counsel for the defense was remiss and grossly eneffective by
rendering a poor performance depriving Vanegas' of his liberty without due process and
his guaranteed Sixth Amendment right to effective assistance, and where trial counsel
combined investigative performance was so poor and prejudicial that it destroyed
Vanegas' most fundamental of rights, that is, his right to a fair trial. Thus, this
Honorable

Court

has

the

jurisdiction

to

issue

a Writ

of

Certiorari,

vacate

petitioner's conviction and remand the case to the lower court for further specific
and proper fact-findings as to petitioner's claims.
II.

The petitioner's respectfully note before this Honorable Court that his

claims are firmly grounded on the Supreme Court holding of Kimmelman v. Morrison, 477
US 365, 383, 106 S Ct 2574 (1986); Mooney v. Holohan, 294 US 103, 112, 55 S Ct 340;
Brady v. Maryland, 373 US 83, 83 S Ct 1194.
In Kimmelman

the United State Supreme Court held that the Sixth Amendment does

provide a remedy for counsel's failure to argue a Fourth Amendment defense. The
Supreme Court rejected the suggestion that criminal defendants should not be allowed
to vindicate through federal habeas review their right to effective assistance of

16.

counsel where counsel's primary error is failure to make a timely request for the
exclusion of illegally seizedevidence—evidence which is typically reliable and often
the most probative information bearing on the guilt or innocence of the defendant. The
Supreme Court never intimated that the right to counsel is conditioned upon actual
innocence. The constitutional right of criminal defendants are granted to the innocent
and the guilty alike. Consequently, the Supreme Court declined to hold either that the
guarantee of effective assistance of counsel belong solely to the innocent or that it
attaches only to matters affecting the determination of actual guilt.
A remedy for counsel's failure to argue a Fourth Amendment defense is inconsistent
with holding that a defendant is not prejudiced by, and therefore has no Sixth
Amendment grievance concerning, a failure to suppress illegally seized evidence.
The Supreme Court had established that conviction secured by use of perjured
testimony known to be such by prosecuting attorneys, is lacking in due process. Also,
a defendant is denied due process when the government fails to correct law enforcement
officials false testimony, especially where false testimony is material and probably
affected judgment of jury.
As this Honorable Court stated in Mooney v. Holohan ruling. Where the Court ruled
on what nondisclosure by prosecutor violate due process:
"It is a requirement that cannot be deemed to be satisfied by mere notice and
hearing if a State has contrived a conviction through the pretense of a trial
which in true is but used as a mean of depriving a defendant of liberty
through a deliberate deception of court and jury by the presentation of
testimony known to be perjured. Such a contrivance by a State to procure the
conviction and imprisonment of a defendant is as inconsistent with the
rudimentary demands of justice as is the obtaining of a result by
intimidation."
In Brady v. Maryland this Court stated:
"We now hold that the suppression by prosecution of evidence favorable to an
accused upon request violates due process where the evidence is material
either to guilt or to punishment, irrespective of the good or bad faith of the
prosecution."
17.

III.

The decision of the United States Court of Appeals for the Fourth Circuit in

petitioner's instant case is in sharp contrast with the holding of the United States
Court of Appeals for the Seventh Circuit dn Owens v. United States, 387 F3d 607; 2004
US App LEXIS 21641. Where, the petitioner inmate sought review of a judgment from the
United States District Court for the Southern District of Indiana,

Indianapolis

Division, which denied his 28 USCS § 2255 motion to set aside his drug conviction and
sentence on the ground that his trial lawyer was ineffective in arguing a motion to
suppress evidence seize pursuant to a warrant to search petitioner's house.
The Court of Appeals for the Seventh Circuit agreed that petitioner's counsel was
ineffective in arguing what should have been a successful motion to suppress the
evidence found in petitioner's home because the warrant was based on a barebones
affidavit that did not establish probable cause. Counsel argued that the house did not
belong to petitioner when in fact it was petitioner's house. This argument enabled the
Government to successfully argue that if it was not petitioner's house, his rights had
not been violated by the search. Petitioner's appeal met the threshold obstacle of the
court's prior decision in Holman, which held that a failure to make a Fourth Amendment
objection to the admission of evidence could not amount to ineffective assistance of
counsel if the evidence was reliable. The court, however, concluded that Holman v.
£>t/«.vroVe<4.

Page, 95 F3d 481 (7th Cir. 1996) should be^because it was inconsistent with the case
law cf other circuits and because it was inconsistent with decisions of the United
States Supreme Court.
The Court reversed the judgment and remanded the action for further proceedings.
CONCLUSION
Petitioner respecfully prays that the Court grant the petition for a writ of
certiorari, vacate petitioner's conviction and remand the case to the lower court for
18.

further specific and proper fact-findings as to petitioner's claims.
Respectfully submitted,

Jose Deldresv anegas
Date:

November 20, 2020

PRISON MAIL-BOX RULE
Petitioner

Applicant Jose Delores Vanegas,

a layman proceeding pro se,

respectfully invoke "prison mail-box" rule in Houston v. Lack, 487 US 266 (1988), so
that the instant Application for Writ of Certiorari may be deemed filed on the 20th
day of

November 2020 when it was first deposited in the prison mail-box,
By: /s/
_________
Jose Delores Vanegas
Reg. No.: 80196-083
D. Ray James Corr. Fac.
Post Office Box 2000
Folkston, Georgia 31537

19.

